Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




THE PROGRAM SUPPORT CENTER’S
     PERSONNEL SERVICE:
  CUSTOMER SERVICE EVALUATION




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 2000
                      OEI-09-98-00140
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco office prepared this report under the direction of Kaye D. Kidwell, Regional
Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                                   HEADQUARTERS


Steven Zerebecki, Lead Analyst                           Linda Hall, Program Specialist

Jay Davidson, Program Analyst
Rob Gibbons, Program Analyst
Deborah Harvey, Program Analyst
Scott Hutchison, Program Analyst
Thomas Purvis, Program Analyst
Lori Stickel, Program Analyst




     To obtain copies of this report, please call the San Francisco Regional Office at (415)437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                          SUMMARY

PURPOSE

To (1) assess customer satisfaction with the Program Support Center’s (PSC) payroll service and
(2) evaluate the efficiency and accuracy of the PSC’s processing of personnel actions that affect
payroll.

BACKGROUND

The PSC was formed in 1995 by combining the administrative functions formerly located in the
Office of the Secretary, the Office of the Assistant Secretary for Health, the Health Resources and
Services Administration, the Indian Health Service, and the Food and Drug Administration. The
PSC provides services in three broad business areas: human resources, financial management, and
administrative operations. Payroll and personnel services are included in the Human Resources
Service Branch.

The PSC operates an automated payroll service for all of the Department’s 60,000 employees in
13 agencies. Payroll services include, but are not limited to, electronically processing all
personnel-related actions for each employee, paying each employee correctly biweekly or monthly
and timely with other pay-related functions, and managing current and historical personnel and
payroll data on all employees.

The PSC provides personnel services for the Administration on Aging, the Office of the Secretary,
and the PSC itself. Personnel services that affect payroll include, but are not limited to,
recruitment and employment relations, classification and compensation, human resources,
information systems, and payroll servicing.

To evaluate customer satisfaction, we conducted three surveys of 448 respondents by telephone
or in-person, using standardized survey instruments. We compared PSC personnel customers to
non-PSC customers and reviewed the Official Personnel Files and transaction processes for a
select group of respondents.



                   We conducted this inspection over a 1-year period. During that time, we kept
                   PSC informed of our progress and findings. As we conducted the inspection,
                   PSC advised us of changes it was making and intended to make to be more
                   responsive to its clients.




PSC — Personnel Customer Service Evaluation   )))))))))))                                  OEI-09-98-00140
                                                   1
FINDINGS

Personnel transaction error rates reported by PSC and Non-PSC customers were
significant but not statistically different

Employees in both of our sample populations, new employees and employees who submitted
personnel transactions that affect payroll, reported errors in their personnel transactions. While
PSC customers reported errors in 13 percent of their transactions, non-PSC customers reported
errors in 9 percent of all personnel transactions. The 4 percent difference between the two groups
was not statistically significant. However, we found statistically significant differences between
the two groups in other indicators of customer satisfaction, such as the accuracy of earnings and
leave statements. In addition, we found that new employees experienced more payroll problems
than existing employees who submitted an individual personnel transaction that affected payroll.

PSC customers were less satisfied than non-PSC customers

PSC customers, both new employees and employees who submitted personnel transactions that
affected payroll, were less satisfied with personnel services than non-PSC customers.
Administrative officers who are PSC customers ranked personnel services lower in terms of
overall quality and timeliness than non-PSC customers.

Processing delays accounted for the most customer dissatisfaction

Almost one-half of the problems that employees reported were attributed to slow processing.
New employees often reported delays and problems with their first paycheck and earnings-and-
leave statements. Both administrative officers and new employees complained that corrections of
payroll inaccuracies were especially slow.

To improve customer satisfaction, PSC revised its personnel staffing and
organization

The PSC’s personnel service has improved in recent months. Administrative officers reported
improved satisfaction due to the reorganization of PSC’s personnel division, including the
relocation of staff to downtown Washington, D.C. New employee satisfaction also has improved.

Vulnerabilities persist in some key processes

The PSC does not date stamp and log incoming employee requests. The Official Personnel Files
(OPFs) maintained by PSC are sometimes incomplete or contain inappropriate information.
IMPACT, PSC’s automated personnel and payroll system, is outdated and does not retain data
on the identity of operators who change addresses and social security numbers on savings bonds
issued from employee salary allotments.

PSC — Personnel Customer Service Evaluation   )))))))))))                          OEI-09-98-00140
                                                   2
RECOMMENDATIONS

While PSC’s personnel service customer satisfaction lagged behind that of other HHS personnel
units, we believe PSC has taken some steps to improve its service. We recommend that PSC
continue to improve the customer-service focus of its personnel service. In addition, we
recommend that PSC take the following specific actions:

1. establish timeliness standards for processing payroll-related personnel actions,
2. expand its “help desk” model of customer assistance,
3. begin to date stamp and log employee requests,
4. maintain more complete and accurate OPFs,
5. continue plans to replace the outdated IMPACT system, and
6. 	assure that the software that replaces IMPACT identifies staff who make changes to the
   system’s data.

AGENCY RESPONSE

In response to the recommendations in our draft report, PSC reports that it has “put systems in
place to insure quality personnel service.” The PSC reports having implemented service standards
including timeliness standards to improve personnel transaction processing times. According to
PSC, HHS employee requests are now being logged and date stamped, and in most cases requests
are entered into the payroll system as soon as they are received from customers. Additionally,
PSC reports that in calendar year 2000 it will audit its personnel customers’ OPFs and begin to
implement a new software system for personnel transaction processing .


          This inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency. During the course of this
          inspection, we collected and analyzed personal and confidential information concerning
          Department employees. We took all reasonable precautions to prevent the misuse of this
          personal data. Some of the personal data we collected may be covered by the Privacy Act
          (P.L. 95-579). The Privacy Act provides criminal penalties for any Federal employee




PSC — Personnel Customer Service Evaluation   )))))))))))                                 OEI-09-98-00140
                                                   3
                          TABLE                         OF             CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Transaction processing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Customer satisfaction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Processing delays . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Improved customer relations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Vulnerabilities persist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


A: Table 1: Sample Sizes and Response Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


B: Table 2: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20




PSC — Personnel Customer Service Evaluation               )))))))))))                                                  OEI-09-98-00140
                                                               4
                                    INTRODUCTION

PURPOSE

To (1) assess customer satisfaction with the Program Support Center’s (PSC) payroll service and
(2) evaluate the efficiency and accuracy of the PSC’s processing of personnel actions that affect
payroll.

BACKGROUND

The PSC was formed in 1995 by combining the administrative functions formerly located in the
Office of the Secretary, the Office of the Assistant Secretary for Health, the Health Resources and
Services Administration, the Indian Health Service, and the Food and Drug Administration of the
Department of Health and Human Services (HHS). The PSC provides services in three broad
business areas: human resources, financial management, and administrative operations. Personnel
and payroll services are included in the Human Resources Service Branch.

Envisioned as a “business enterprise,” the PSC’s mission is to provide the Department and other
Federal agencies with administrative support services on a “cost-effective, competitive,
fee-for-service basis.”1 Using fee schedules, the PSC contracts with “customer agencies” ( i.e.,
Department components) to provide various administrative services. The PSC2 received
approximately $31.6 million for personnel and payroll services for fiscal year 1998, and it projects
payments of approximately $19.5 million for fiscal year 1999.3 The decrease in payments is the
result primarily of the Social Security Administration’s move to another servicing agency4 plus the
completion of a computer modernization project.

Payroll services include, but are not limited to:

 !       electronically processing all personnel-related actions for each employee,
 !       paying each employee correctly biweekly or monthly and timely with other pay-related
         functions, and
 !       managing current and historical personnel and payroll data on all employees.5

         1
          Program Support Center, Fiscal Year 1998 Business Plan.
         2
          We refer to the Human Resources Service as the PSC throughout this report.
         3
          PSC website (http://www.psc.gov)
         4
         The PSC also processed payroll for all Social Security Administration employees until
April 1998.
         5
          Program Support Center, 1999 Justification of Estimates for Appropriations Committees.
PSC — Personnel Customer Service Evaluation    )))))))))))                                       OEI-09-98-00140
                                                    5
The PSC operates an automated payroll service for all of the Department’s 60,000 employees in

13 agencies:


 !       Office of the Secretary (composed of 10 sub-offices),

 !       Administration for Children and Families,

 !       Administration on Aging,

 !       Agency for Health Care Policy and Research,

 !       Agency for Toxic Substances and Disease Registry,

 !       Centers for Disease Control and Prevention,

 !       Food and Drug Administration,

 !       Health Care Financing Administration,

 !       Health Resources and Services Administration,

 !       Indian Health Service,

 !       National Institutes of Health,

 !       Program Support Center, and

 !       Substance Abuse and Mental Health Services Administration.6


The PSC also provides personnel services for the Office of the Secretary, the Administration on

Aging, and the PSC itself. Personnel services that affect payroll include, but are not limited to:


 !       entry on duty processing,

 !       classification and compensation,

 !       human resource information systems, and

 !       payroll servicing.


Other Reviews

The Office of Inspector General (OIG) completed an audit report in July 1997 of the PSC’s
automated payroll system. The audit included an inventory of payroll transactions and a sample
of payroll files to test the automated system controls. The OIG concluded “that no computational
errors were in the sample population of payroll payments made to HHS employees in fiscal year
1996.”7

In April 1999, the OIG issued an inspection report titled, “Personnel Service Options: Exploring
the Possibilities” (OEI-09-98-00141). The OIG found that PSC’s charges to the Office of
Secretary of DHHS for personnel and payroll service were reasonable compared to what other
DHHS agencies spent on internal personnel operations.



         6
         The PSC also processed payroll for all Social Security Administration employees until
April 1998.
         7
          Office of Inspector General, Agreed-Upon Procedures Report on the Department of Health and Human
Services Payroll System, Summary Memorandum, A-17-96-00010, July 1997.
PSC — Personnel Customer Service Evaluation    )))))))))))                                       OEI-09-98-00140
                                                    6
The Office of Merit Systems Oversight and Effectiveness within the U.S. Office of Personnel
Management (OPM) evaluated the Department’s human resource management program in fiscal
year 1999. This evaluation is part of a government-wide effort to identify (1) compliance issues,
(2) common findings, and (3) best practices among operating divisions. The OPM is conducting
agency-focused reviews to “help meet mission goals through more effective recruitment,
development, and use of employees” and to “gather information to improve Federal human
resource systems and programs.”8


METHODOLOGY

The scope of this inspection was limited to the experiences and satisfaction of customers (i.e.,
Department employees and agencies) that use PSC’s Human Resource Service. We compared the
experience and satisfaction of PSC’s personnel customers with the experience and satisfaction of
customers serviced by other HHS personnel units. Throughout this report, we refer to the former
as PSC customers and the latter as non-PSC customers. At the time of our inspection, PSC
customers accounted for approximately 7 percent of all HHS employees.

Customer experience and satisfaction

We conducted four customer satisfaction surveys via telephone or in-person using standardized
survey instruments. In total, we interviewed 488 respondents.

Survey #1: 	 HHS Employees — Interviews were conducted February through April 1999.
             We selected a random sample of employees who initiated personnel transactions that
             affect payroll. We stratified the sample into two groups: PSC customers and non-
             PSC customers. We asked all respondents to report their experience and satisfaction
             with a specific transaction that was processed on their behalf from October 1, 1998
             through December 31, 1998. We also asked them about their their experience and
             satisfaction with personnel services in general. See appendix A for details on sample
             sizes and response rates.

Survey #2:	 New HHS employees — Interviews were conducted February through April 1999.
            We selected a sample of all employees who entered on duty to their current
            employing agency from October 1, 1998 through December 31, 1998. We
            stratified the sample into two sub-groups: PSC customers and non-PSC customers.
            We asked all respondents to report their experience and satisfaction with the entry-
            on-duty process and with personnel services in general. See appendix A for details
            on sample sizes and response rates.




         8
          Office of Personnel Management, Office of Merit Systems Oversight and Effectiveness Briefing Charts.
PSC — Personnel Customer Service Evaluation    )))))))))))                                    OEI-09-98-00140
                                                    7
Survey #3:	 New OIG employees — Interviews were conducted in May 1999.
            In addition to the new HHS employees (which included some OIG employees), we
            interviewed all OIG employees who entered on duty from March 1, 1999 to May 9,
            1999. We asked all respondents to report their experience and satisfaction with the
            entry-on-duty process and with personnel services in general up to the date of our
            interview. See appendix A for details on sample sizes and response rates.


Survey #4: 	 Administrative Officers — Interviews were conducted May through June 1999.
             We compiled a population of HHS administrative and personnel staff (both
             headquarters and regional offices) who regularly interact with the PSC for personnel
             and/or payroll services. We stratified the population into two sub-groups: PSC
             customers and non-PSC customers. We asked all respondents to report their
             experience and satisfaction with personnel services up to the date of our interview.
             See appendix A for details on sample sizes and response rates.

Personnel-case-file review and PSC workflow review

We reviewed the Official Personnel Files (OPFs) and examined the transaction processes for
selected respondents from surveys #1 , #2, and #3. We focused on evidence of timeliness and
accuracy in their transactions. The file reviews were conducted in June 1999 and included all
documents that were present in the files at that time. In total, we reviewed 53 OPFs.


         This inspection was conducted in accordance with the Quality Standards for InspectionsÊ
         issued by the President’s Council on Integrity and Efficiency. During the course of this
         inspection, we collected and analyzed personal and confidential information concerning
         Department employees. We took all reasonable precautions to prevent the misuse of this
         personal data. Some of the personal data we collected may be covered by the Privacy Act
         (P.L. 95-579). The Privacy Act provides criminal penalties for any Federal employee




PSC — Personnel Customer Service Evaluation   )))))))))))                                OEI-09-98-00140
                                                   8
                                              FINDINGS

                  We conducted this inspection over a 1-year period. During that time, we kept
                  PSC informed of our progress and findings. As we conducted the inspection,
                  PSC advised us of changes it was making and intended to make to be more
                  responsive to its clients.



Personnel transaction error rates reported by PSC
and non-PSC customers were significant but not statistically
different
Employees in both of our sample populations, new employees and employees who submitted
personnel transactions that affect payroll, reported errors in their personnel transactions. While
PSC customers reported errors in 13 percent of their transactions, non-PSC customers reported
errors in 9 percent of all personnel transactions. The 4 percent difference between the two groups
was not statistically significant. However, we found statistically significant differences between
the two groups in other indicators of customer satisfaction, such as the accuracy of earnings and
leave statements. In addition, we found that new employees experienced more payroll problems
than existing employees who submit an individual personnel transaction that affects payroll.

Employees reported low error rates for individual personnel transactions that
affect payroll

According to PSC and non-PSC                   Transaction types: Employee reported errors
employee customers, 85 percent of               Transaction type                            Frequency in
all transactions were processed                                                                sample
correctly. Of the remainder,                    Start/change health benefits                      4
slightly more than 10 percent were              Promotion                                         3
problematic and                                 Termination                                       3
5 percent were not characterized.               Start/change/transfer Thrift Savings data         3
In our file review of PSC                       Change in savings allotment                       3
customers who reported a                        Change in work hours or duty station              2
transaction problem, we found that              Federal tax withholding                           1
21 percent of their problems were               Stop allotment                                    1
confirmed as processing errors.                 Start/change bond allotment                       1
The remaining 79 percent either                 Conversion to excepted appointment                1
were not supported by existing                  Transfer of leave data                            1
paperwork or the files were not                 Total reported problems                          23
complete enough to verify or refute
the perceived error.
PSC — Personnel Customer Service Evaluation     )))))))))))                                  OEI-09-98-00140
                                                     9
New employees who are PSC customers reported more payroll problems than
non-PSC customers

While fewer than one-quarter of the new employees who are non-PSC customers reported
inaccuracies, more than 40 percent who are PSC customers reported inaccurate earnings-and-
                                                leave statements within the first 6 to 7 months
                    Chart 1                     of employment. (See chart 1.) New employees
          All new HHS employees:                reported errors in four basic transaction
       Innacurate earnings-and-leave            categories (i.e., health benefits, leave, life
                 statements
                                                insurance, and tax-withholding) in addition to
              41%                               several other categories. New employees who
                          23%                   are PSC customers experienced more health-
                                                benefit and tax-withholding problems than non-
                                                PSC customers. However, employees in both
                                                groups had difficulty obtaining accurate leave
                                                balances. Many of the leave problems were
    PSC customers Non-PSC customers
                                                attributed to delays in the transfer of leave data
                                                from other Federal agencies.

We reviewed the files of more than half of the new employees who are PSC customers who
reported a problem. Only 22 percent of their problems could be confirmed as processing errors.
The remaining 78 percent of problems either were not supported by existing paperwork or the
files were not complete enough to confirm or refute the reported error.



PSC customers were less satisfied than non-PSC customers
Almost one-half of PSC customers who submitted payroll transactions were either somewhat or
not at all satisfied with their personnel service. They reported that PSC staff were not responsive
to their requests and inquiries. In addition, the
dissatisfied employees said that PSC’s personnel service                        Chart 2
was too slow in processing employee requests.                      All HHS employees: Satisfaction
However, one dissatisfied employee conceded that PSC                    with personnel services
                                                                          83%
is improving, chiefly as a result of personnel staff
relocating to offices in downtown Washington, D.C.                  54%
                                                                                         46%
In comparison, 17 percent of the HHS employees who
are non-PSC customers reported that they were either                                           17%
somewhat or not at all satisfied with their service.
See chart 2 for the satisfaction levels of employees who        very satisfied or   somewhat satisfied
submitted transactions in the fourth quarter of 1998.               satisfied       or not at all satisfied
                                                                 PSC customers       Non-PSC customers




PSC — Personnel Customer Service Evaluation   )))))))))))                             OEI-09-98-00140
                                                   10
New employees who are PSC customers were
less satisfied with personnel services
                                                                                    Chart 3
New employees who are PSC customers were less                             New employee satisfaction
satisfied and complained more about the entry-on-duty                       with the EOD process
process and other personnel services than non-PSC                     72% 80%
customers. Their most common complaint was that
they were not paid on time. While our review revealed
that only 22 percent of the new employees’ complaints,                                       28%
including late pay, are attributed to personnel                                                     20%
processing errors, new employees generally felt that
personnel inefficiencies were at the root of their
                                                                    very satisfied or   somewhat or not at all
personnel problems. They also reported that their
                                                                       satisfied             satisfied
orientation, including explanations of the forms that
                                                                    PSC customers       Non-PSC customers
they needed to complete, was deficient. Some new

                             Chart 4                          employees reported that too much
                     New employee ranking                     responsibility is
                      of personnel services
              79%                                             given to their administrative officers
        69%                                                   during orientation, particularly when
                                                              they are located in regional or field
                                                              offices, far removed from the expertise
                                                              of PSC’s personnel staff. One new
                              30%
                                     18%
                                                              employee reported that PSC was
                                                1% 3%         particularly diligent in the steps leading
                                                              up to her appointment. After she
                                                              reported for work, however, her agency
    excellent or good         fair or poor      don't know	
                                                              forbade her contact with PSC, insisting
               PSC customers         Non-PSC customers
                                                              that she talk to her agency’s
                                                              administrative staff who would contact
PSC personnel on her behalf.

Administrative officers who are PSC customers ranked their personnel service
lower non-PSC customers

Fewer than 40 percent of administrative officers who are PSC customers ranked the overall
quality of their personnel service as either good or very good compared to 84 percent of non-PSC
customers. The PSC customers complained that PSC personnel staff are difficult to reach and
that they often lose paperwork that is sent to them. The administrative officers located in regional
and field offices complained that reaching PSC staff by phone and e-mail is especially difficult.
As a result of the PSC reorganization of 1995, HHS regions lost many of their personnel staff,
making it necessary for regional administrative officers to work with headquarters PSC staff. In
addition, many administrative officers have assumed the duties for which they once relied on local
personnel experts.

PSC — Personnel Customer Service Evaluation    )))))))))))                               OEI-09-98-00140
                                                    11
                                                     Chart 5
                                          All adminstrative officers: 

                                     Overall quality of personnel services

                                                                            84%

                                       28%                        38%
        13%                                       11%                                           20%
                    4%
                                                                                                            1%

      poor or very poor                  adequate               good or very good         don't know /recall or did not
                                        PSC customers    Non-PSC customers                            ask




Administrative officers who are PSC customers ranked timeliness much lower than non-PSC
customers. Approximately one quarter ranked PSC’s timeliness as good or very good, while
approximately three quarters of administrative officers who are non-PSC customers ranked their
personnel offices good or very good. The PSC customers believed that PSC is understaffed. As
a result, personnel and payroll service was slow, particularly for corrections of personnel actions
that affect payroll.

                                                     Chart 6
                                            All administrative officers:
                                         Timeliness of personnel services
                                                                              74%

                                         36%                          28%
            15%      7%                            19%                                             20%
                                                                                                              0%

         poor or very poor                    adequate            good or very good             don't know/recall
                                      PSC customers       Non-PSC customers



Slightly more than one-third of the                                              Chart 7
administrative officers who are PSC                                     Administrative officers
                                                                       who are PSC customers:
customers were more satisfied with
                                                                  1999 satisfaction compared to 1995
personnel services since the inception of
PSC in 1995. Almost half of them were
                                                                46%
less satisfied. More than two-thirds of
the PSC customers were in their current                                                                 36%
positions prior to 1995 and the creation
of PSC. Those who were less satisfied
with personnel also ranked                                                          14%
communication between the PSC and
their employing agency lower than non-
PSC customers.
                                                           less satisfied    about the same       more satisfied



PSC — Personnel Customer Service Evaluation         )))))))))))                                       OEI-09-98-00140
                                                         12
Processing delays accounted for the most customer
dissatisfaction
Almost one-half of the employees who reported problems with transactions attributed their
problems to processing delays. In total, 4 percent of the general employee population perceived a
transaction problem attributed to a delay in processing. There was no statistically significant
difference in the frequency of perceived delays between PSC customers and non-PSC customers.

New employees reported delays and problems with their first pay and earnings-
and-leave statements

Approximately 17 percent of all new employees reported delays in receiving their first paycheck.
While only 11 percent of the new employees who are non-PSC customers reported pay delays, 21
percent of new employees who are PSC customers reported a delay. We could confirm less than
half of the delays reported by PSC customers. More than half of the reports either were not
supported by existing paperwork or the files were not complete enough to confirm or refute the
perceived error. Of those reports that we confirmed, delays were attributed to: late entry of data
to the payroll system, mid-pay period hires resulting in forms being submitted after deadlines, late
or incorrect direct deposit forms, and problems related to temporary appointments to the Office of
Emergency Services.

While most new employees received their first paycheck on time, many, especially new employees
who had transferred from other Federal agencies, reported other delays. For example, employees
who transferred from other Federal agencies often reported that their leave and Thrift Savings
balances remained inaccurate for weeks and sometimes months following their appointment. The
PSC and other HHS personnel offices rely on the “losing” Federal agency to submit data to them
in order to calculate and transfer accurate leave and Thrift Savings account balances. Based on
our review of selected files, the PSC made reasonable attempts to acquire the data from other
Federal agencies. The other agencies were slow in responding, sometimes taking up to 6 months.

Almost four times as many new employees who are PSC customers reported health benefit
problems than non-PSC customers. Most of the problems were late confirmations from various
health insurance providers. While health benefit deductions from payroll were timely, employees
reported that insurance providers had not received notification of their enrollment and therefore
could not provide benefits.

Corrections of payroll inaccuracies were especially slow

The PSC took longer to process personnel and payroll corrections than non-PSC agencies,

according to administrative officers. While a significant proportion of both types of administrative

officers reported that it can take more than a month to correct payroll inaccuracies,

fewer PSC customers reported that it takes only one or two pay periods to perform corrections.




PSC — Personnel Customer Service Evaluation   )))))))))))                           OEI-09-98-00140
                                                   13
See chart 8 for details. The 23 percent of non-PSC administrative officers who responded
“other” most often said that payroll corrections performed by PSC, not their personnel unit, took
longer.

                                                        Chart 8
                                               All administrative officers:
                                              Corrections prccessing time
                        54%                   44%
                38%
                                                                            23%
                                                    18%
                                                                      10%                    8%     6%


           within one or two pay      more than a month                other              don't know/recall
                  periods            PSC customers              Non-PSC customers




The employees who are PSC customers were more often dissatisfied because of delays in
correcting payroll inaccuracies. Almost twice the proportion of PSC customers responded that
their correction was not timely than did non-PSC customers. While the corrections performed for
PSC customers were rarely performed in a timely fashion, they were all eventually performed.
Twelve percent of the employees who are non-PSC customers and who had experienced a

                                            Chart 9
               All HHS Employees: Was the correction performed in a timely fashion?

               82%


                          45%                                   43%

                                                    18%                                       12%



                     No                                   Yes                     Problem has not been
                                                                                        corrected
                                    PSC customers               Non-PSC customers



problem reported that corrections were yet to take place. See chart 9 for details.




PSC — Personnel Customer Service Evaluation         )))))))))))                                      OEI-09-98-00140
                                                         14
To improve customer satisfaction, PSC revised its personnel
staffing and organization
While administrative officers were less satisfied with personnel services since the creation of
PSC, several mentioned that the service has improved in recent months. The accessibility of the
help desk for payroll-related problems and the relocation of some personnel staff to downtown
Washington, D.C. have contributed to improved customer service and staff accessibility.

New employee satisfaction with personnel
services has improved. For example, all of the
                                                                     Chart 10

new OIG employees who entered on duty
                                                               New OIG employees: 

between March and May 1999 reported that
                                                         Satisfaction with EOD process?

they were satisfied with the EOD process.                                               100%
This compares to 81 percent of the OIG new                                        81%
employees who entered on duty in the fourth
quarter of 1998. The newest OIG employees
were also experiencing fewer delays in pay.
Twenty percent of OIG employees from the                   19%

fourth quarter of 1998 reported a delay in
their first pay, compared to 8 percent of the
OIG employees who entered on duty from                somewhat or not at all  very satisfied or
March to May 1999.                                         satisfied              satisfied
                                                             EOD October - December 1998
                                                             EOD March - May 1999




Vulnerabilities persist in some key processes
Despite improved customer satisfaction, personnel and payroll inaccuracies appear to have
increased for the newest employees. The new OIG employees are still experiencing problems
getting timely confirmation of health benefits from providers. Some new OIG employees received
inaccurate salary amounts or inaccurate grade and step specifications on their first earnings-and-
leave statements.

We identified several deficiencies in the PSC’s internal tracking and accounting process. The PSC
staff rarely date stamp the forms they receive from customers, and the systems in place to ensure
accurate and timely computer input of customer requests are tenuous at best. For example, we
observed new employee entry-on-duty packages being received in PSC’s personnel office without
being logged in or date stamped. Instead, the packages were immediately placed among stacks of
other customer requests, with no apparent system to assess priorities and/or to assure timely
processing. In addition, original forms retained by the PSC in OPFs often lack transaction dates
of entry and signatures or initials of the PSC staff who processed them, making evaluation of
processing times and staff accuracy more difficult if not impossible.
PSC — Personnel Customer Service Evaluation )))))))))))                             OEI-09-98-00140
                                                  15
During our review of OPFs for 40 new employees, we frequently found that important forms and
other information were missing from the files or, conversely, we often found information that
should not be contained in the OPF. One quarter of the files were missing important forms and
information. For example, 18 percent of the files were missing position descriptions, and
15 percent were missing the accession paperwork for the employee’s current position. On the
other hand, 23 percent of the files contained information that did not belong in the file. Examples
of the latter include employee evaluations from previous jobs, photocopies of an employee’s
drivers license and marriage certificate, and the list of the other “best qualified” candidates from
which the employee was selected for the position.

The PSC’s “IMPACT” automated personnel and payroll system lacks internal controls for the
mis-allocation of bond allotments. IMPACT does not retain data on the identity of system
operators who change social security numbers and addresses on savings bonds issued from
employee salary allotments. Therefore, bond allotments can be changed and issued to addresses
and social security numbers other than those indicated by the employee without record of who
made the change.




PSC — Personnel Customer Service Evaluation   )))))))))))                            OEI-09-98-00140
                                                   16
                             RECOMMENDATIONS

While PSC’s personnel service customer satisfaction lagged behind that of other HHS personnel
units, we believe PSC has taken some steps to improve its service. We recommend that PSC
continue to improve the customer-service focus of its personnel service. In addition, we
recommend that PSC take the following specific actions:

1. establish timeliness standards for processing payroll-related personnel actions,
2. expand its “help desk” model of customer assistance,
3. begin to date stamp and log employee requests,
4. maintain more complete and accurate OPFs,
5. continue plans to replace the outdated IMPACT system, and
6. 	assure that the software that replaces IMPACT identifies staff who make changes to the
   system’s data.




PSC — Personnel Customer Service Evaluation   )))))))))))                         OEI-09-98-00140
                                                   17
                              AGENCY RESPONSE

The PSC offered the following comments in response to the recommendations in our draft report:

    Since February 14, 1999, PSC has put systems in place to ensure quality personnel service. They have
    monthly and/or quarterly meetings to address concerns relative to customer satisfaction, delivery of services
    and quality of products. After customer meetings, team meetings are held to discuss issues raised by the
    customer, identify corrective steps and develop preventive/improvement procedures. Additionally, they have
    designed a check list and quality review mechanisms for all incoming personnel requests. . . .

    PSC has implemented service standards and deliverables that define service expectations. More specifically,
    Operations Managers established timeliness standards for receiving personnel actions by Wednesday of the
    second week of each pay period to be effective the next pay period. The standard for the receipt of payroll
    documents is that those received by the end of the first week of the pay period will be processed by the end of
    that pay period.

    Dedicated staff is responsible for resolving personnel, payroll and automated systems inquiries and issues.
    PSC has developed a report monitoring system. The report is generated by the Help Desk employee and
    submitted to PSC management and to customers. The report provides updates and status to customers and
    provides PSC management with activity, timeliness and trend assessments. This information is used to better
    serve customers. Also, they have identified in appropriate correspondences, including the telephone directory,
    the name and number of the “help desk” contact for specified servicing agencies.

    PSC has been dating and logging incoming correspondence which has been generated by its customers’
    administrative officers and now has started to log in and date stamp all employee requests as well. In most
    cases, employee requests are put into the system as soon as they are received. Note: There probably were
    delays associated with employee requests when the servicing personnel office was located in Silver Spring and
    physically away from its customers.

    Samples of OPFs are audited quarterly in order to insure that OPFs remain accurate and complete. A
    standardized check list is used in auditing and a control log is maintained on OPFs audited. In addition,
    OPFs are routinely reviewed when actions are taken. Deficiencies, when found, are immediately addressed
    and the OPFs are corrected. PSC plans to accomplish, within the next calender year 2000, a review of OPFs
    for OS/AoA/OIG customers.

    For the past year, a Department-level Steering Committee for the EHRP (Enterprise Human Resources Payroll
    System) has examined options for a replacement solution of the current payroll system. This also includes the
    replacement of the IMPACT system. In August 1999, the Steering Committee selected a solution and
    implementation of this system will begin in FY 2000.




PSC — Personnel Customer Service Evaluation     )))))))))))                                        OEI-09-98-00140
                                                      18
                                                                                 APPENDIX A


                               Sample Sizes and Response Rates
                                                                                          Response
 Respondent Group               Survey number        Sampling     Sample   Number of      rate
                                (see methodology)    method       size     responses

 HHS employees, serviced                      1      stratified   125      103            82.4%
 by PSC personnel, who                               random
 submitted a personnel                               sample
 action that affected
 payroll from October 1 to
 December 31, 1998

 HHS employees, serviced                      1      stratified   125      105            84%
 by other HHS personnel                              random
 units, who submitted a                              sample
 personnel action that
 affected payroll from
 October 1 to December
 31, 1998

 HHS employees, serviced                      2      total        102      88             86.2%
 by PSC personnel, who                               universe
 entered on duty from                                selected
 October 1 to December
 31, 1998

 HHS employees, serviced                      2      random       85       66             77.6%
 by other HHS personnel                              sample
 units, who entered on
 duty from October 1 to
 December 31, 1998

 HHS administrative                           4      purposeful   42       39             92.8%
 officers serviced by PSC
 personnel

 HHS administrative                           4      purposeful   90       74             82.2%
 officers serviced by other
 HHS personnel units

 HHS OIG employees who                        3      total        14       13             92.9%
 entered on duty from                                universe
 March 1 to May 9, 1999                              selected

                       Total                                      583      488            83.7%




PSC — Personnel Customer Service Evaluation       )))))))))))                          OEI-09-98-00140
                                                       19

                                                                                              APPENDIX B

                         Confidence Intervals for Selected Statistics
Chart                                         Statistic                              Point         95 Percent
                                                                                   estimate    Confidence Interval
         PSC-processed employees who reported transaction errors                    13.2%        7.2% - 19.2%
         HHS agency-processed employees who reported transaction errors              8.9%        3.8% - 13.9%
   1     PSC-processed new employees who reported inaccurate earnings and           41.4%            exact9
         leave statements
   1     HHS agency-processed new employees who reported inaccurate               23.1%          13.1% - 33.1%
         earnings and leave statements
   2     PSC-processed employees who are somewhat or not at all satisfied         46.4%          36.7% - 56.2%
         with their personnel services
   2     HHS agency-processed employees who are somewhat or not at all            17.2%           9.0% - 24.5%
         satisfied with their personnel services
   3     PSC-processed new employees who are satisfied or very satisfied with     72.4%               exact
         the EOD process
   3     HHS agency-processed new employees who are satisfied or very             80.3%          72.75% - 87.9%
         satisfied with the EOD process
   4     PSC-processed new employees who reported their personnel service is 69.0%                    exact
         good or very good
   4     HHS agency-processed employees who reported their personnel              78.5%          68.7% - 88.2%
         service is good or very good
   5     since the administrative officers group was a purposive sample, confidence                   exact
         intervals do not apply
   6     since the administrative officers group was a purposive sample, confidence                   exact
         intervals do not apply
   7     since the administrative officers group was a purposive sample, confidence                   exact
         intervals do not apply
   8     since the administrative officers group was a purposive sample, confidence                   exact
         intervals do not apply
   9     PSC-processed employees who reported their correction was not            81.5%          58.7% -100.0%
         timely
   9     HHS agency-processed employees who reported their correction was         45.0%          12.2% - 77.8%
         not timely
  10     OIG new employees who reported they are satisfied or very satisfied     100.0%               exact
         with the EOD process




         9
             Since the entire population was sampled, a t-test is not necessary.
PSC — Personnel Customer Service Evaluation           )))))))))))                                 OEI-09-98-00140

                                                          20

